PROOF OF SERVICE

I,Palani Karupaiyan , do swear or declare that on this date,

wed nev __,as required by Supreme Court Rule 29
T have served the enclosed PETITIONERS’ PETITION FOR REHEARING
on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
1) Antonella Karlin thru email Akarlin@law.nye.gov
Also thru USPS at
Antonella Karlin,
New York City Law Department
100 Church st,

New York
NY 1007.

 

I declare under penalty of perjury that the foregoing is true and correct.

Executed on,Nov_O'\_ 2020.

Page 9 of 10
